No. 20A169

In the Supreme Court of the United States
ALABAMA ASSOCIATION OF REALTORS, et al.,
APPLICANTS,
V.

U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, et al.,
RESPONDENTS.
CERTIFICATE OF COMPLIANCE
In accordance with Sup. Ct. R. 37.5 and 33.1(h), I certify that the Motion for
Leave to File a brief as amici curiae contains 399 words, excluding those parts of the
document exempted by Sup. Ct. R. 33.1(d).
I also certify that the Brief of the District of Columbia and the States of
Connecticut, California, Colorado, Delaware, Hawaii, Illinois, Maine, Maryland,
Massachusetts, Michigan, Minnesota, Nevada, New Jersey, New Mexico, New York,
North Carolina, Oregon, Pennsylvania, Rhode Island, Virginia, Washington, and
Wisconsin as Amici Curiae in Opposition to the Emergency Application to Vacate the
Stay contains 3,700 words, excluding those parts of the document exempted by Sup.
Ct. R. 33.1(d).

June 10, 2021

/s/ Loren L. AliKhan
LOREN L. ALIKHAN
Solicitor General
Counsel of Record
Office of the Attorney General
400 6th Street, NW, Suite 8100
Washington, D.C. 20001
(202) 727-6287
(202) 730-1864 (fax)
Loren.AliKhan@dc.gov

